Nos. 20-429 and 20-539
IN THE SUPREME COURT OF THE UNITED STATES
AMERICAN MEDICAL ASSOCIATION, ET AL., PETITIONERS
v.
ALEX M. AZAR, II, SECRETARY OF HEALTH AND HUMAN
SERVICES, ET AL.
STATE OF OREGON, ET AL., PETITIONERS
v.
ALEX M. AZAR, II, SECRETARY OF HEALTH AND HUMAN
SERVICES, ET AL.
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE FEDERAL RESPONDENTS, via e-mail and first-class mail, postage
prepaid, this 4TH day of December, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 3324
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on _December 4, 2020.

December 4, 2020

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217

Due to the continuing delay in receiving incoming mail at the Department of Justice,
in addition to mailing your brief via first-class mail, we would appreciate a fax or
email copy of your brief. If that is acceptable to you, please fax your brief to
Charlene Goodwin, Supervisor, Case Management, Office of the Solicitor
General, at (202) 514-8844, or email at SupremeCtBriefs@USDOJ.gov. Ms.
Goodwin’s phone number is (202) 514-2217 or 2218. Thank you for your
consideration of this request.

20-0429
AMERICAN MEDICAL ASSN., ET AL.
ALEX M. AZAR, SEC. OF HEALTH & HUMAN
SERVICES, ET AL.

BARBARA DALE UNDERWOOD
SOLICITOR GENERAL
OFFICE OF THE ATTORNEY GENERAL
28 LIBERTY STREET
NEW YORK, NY 10005-1400
212-416-8016
BARBARA.UNDERWOOD@AG.NY.GOV
PAUL REINHERZ QUITMAN WOLFSON
WILMER CUTLER PICKERING HALE AND
DORR, LLP
1875 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20006
202-663-6390
PAUL.WOLFSON@WILMERHALE.COM

20-0539
OREGON, ET AL.
ALEX M. AZAR, SEC. OF HEALTH & HUMAN
SERVICES, ET AL.

BARBARA DALE UNDERWOOD
SOLICITOR GENERAL
OFFICE OF THE ATTORNEY GENERAL
28 LIBERTY STREET
NEW YORK, NY 10005-1400
212-416-8016
BARBARA.UNDERWOOD@AG.NY.GOV

